                            UNCLASSIFIED

        United States Department of State
      and the Broadcasting Board of Governors
                Office of Inspector General




                        Report of Audit



    Assessment of Value-Added Tax
    Exemption and Reimbursement
               Efforts

   Report Number AUD/FM-05-33, July 2005




                                      IMPORTANT NOTICE

This report is intended solely for the official use of the Department of State or the Broadcasting
Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the
Department of State or the Broadcasting Board of Governors, by them or by other agencies or
organizations, without prior authorization by the Inspector General. Public availability of the
document will be determined by the Inspector General under the U.S. Code 5 U.S.C. 552. Improper
disclosure of this report may result in criminal, civil, or administrative penalties.




                             UNCLASSIFIED

                                       UNCLASSIFIED





                                       SUMMARY


    In accordance with its FY 2004 Audit Plan, the Office of Inspector General
(OIG) conducted a survey to determine the extent to which the Department of
State (Department) had established guidance and mechanisms to track and manage
value-added tax (VAT) exemptions, expenditures, and reimbursements.

    Many foreign governments assess VAT on the goods and services purchased by
the Department’s missions, unless there are bilateral agreements to exempt the
missions from paying VAT or to provide reimbursements. In 2002, a Department
contractor conservatively estimated that the Department loses $24 million a year in
unreimbursed VAT payments on its overseas purchases of goods and services, and
that the Bureau of Overseas Buildings Operations was facing potential VAT
expenditures of $220 million for $2 billion in approved building projects.1

    The Bureau of Diplomatic Security, Office of Foreign Missions is responsible
for ensuring reciprocity in the treatment of U.S. missions abroad, including tax
exemptions. The Chief Financial Officer is responsible for implementing proce-
dures to track and control funds within the Department.2 During the survey, OIG
reviewed regulations and policies pertinent to VAT exemptions and obtained
information on the Department’s VAT process from relevant bureaus.

    OIG determined that the Department did not have adequate oversight of the
VAT process; its financial management systems were not flexible enough to identify
and track VAT reimbursements; and it had not developed the necessary policies,
procedures, and controls related to VAT. For instance, OIG found that the Bureau
of Diplomatic Security, Office of Foreign Missions had not created guidance on
how posts should handle reciprocity issues and was not always involved in reci-
procity negotiations at post. In addition, the bureau had not developed and dis-
seminated formal policies and procedures on how bureaus and posts should manage
negotiating and processing VAT reimbursements. OIG recommends that the
Bureau of Diplomatic Security, Office of Foreign Missions provide guidance and
training to bureaus and posts on managing reciprocity issues and seeking VAT
exemptions and reimbursements.


1
    Department of State, Office of Foreign Missions, VAT Exposure Analysis (June 2002).
2
    See Appendix A for a fuller description of VAT roles and responsibilities within the Department.



OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005   1 .

                                       UNCLASSIFIED

                                       UNCLASSIFIED




             According to bureau and program officials, the Bureau of Resource Manage-
        ment had not established a financial system for easily accounting for VAT payments
        and reimbursements in accordance with the Department’s Foreign Affairs Manual
        and had not provided policies, procedures, and training needed for effective and
        efficient administrative control of VAT reimbursements. Posts had to develop and
        implement their own manual and automated “cuff ” records. OIG recommends that
        the Bureau of Resource Management expand the financial management systems,
        policies and procedures, and training for required accounting and reporting VAT of
        payments and reimbursements at each post.




2 .   OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005


                                       UNCLASSIFIED

                                        UNCLASSIFIED





                   OBJECTIVES, SCOPE, AND

                       METHODOLOGY



    In accordance with its FY 2004 Audit Plan, OIG conducted a survey of the
Department’s VAT processes. The overall objective of the survey was to deter-
mine if the Department was adequately managing the Department’s VAT exemp-
tion and reimbursement efforts under its overall mission of ensuring appropriate
levels of reciprocity for U.S. missions abroad. Within the overall objective, the
survey subobjectives were to determine the extent to which the Department:
       •	 adequately managed the VAT exemption and reimbursement process;
       •	 sufficiently identified, recovered, and distributed reimbursable VAT

          payments in its accounting system;

       •	 properly accounted for and reported VAT transactions in the financial
          statements;3 and
       •	 established and implemented VAT policies, procedures, and controls.
    To accomplish the objective and subobjectives, OIG analyzed the Foreign
Missions Act and related Department policies and program plans and interviewed
officials in geographic, functional, and program bureaus on their experiences
addressing VAT exemption and reimbursement issues, and where appropriate,
accounting for VAT transactions. OIG also reviewed a sample of bilateral agree-
ments, studies, OIG inspection reports, cables, and other supporting documenta-
tion to document VAT reimbursement program issues. OIG met with officials from
the Bureau of Diplomatic Security, Office of Foreign Missions (DS/OFM) to
ascertain their procedures for negotiating VAT exemptions and reimbursements,
and using reciprocity, with foreign governments and their missions here.

    U.S. Agency for International Development, Bureau for International Narcotics
and Law Enforcement Affairs (INL), and Bureau of Resource Management, Office
of Foreign Assistance Programs and Budget (RM/FA) provided information on
accounting for VAT in foreign assistance programs under the provisions of the FY



3
    OIG plans to review this in future work.



OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005   3 .

                                        UNCLASSIFIED

                                       UNCLASSIFIED




        2003 Foreign Operations Appropriations Act and the Consolidated Appropriations
        Resolution, 2003.4 The Office of the Legal Adviser (L) provided insight on U.S.
        bilateral agreements and the VAT exemption and reimbursement negotiation
        process. The Bureau of Overseas Buildings Operations (OBO) provided informa-
        tion on the Department’s potential VAT exposure for upcoming construction
        projects and OBO’s challenges in negotiating VAT agreements with host govern-
        ments.

            OIG’s Office of Audits, Financial Management Division, conducted the survey
        from June through October 2004 in accordance with government auditing stan-
        dards. The fieldwork focused on domestic operations. OIG plans additional work
        at overseas posts in FY 2005. OIG discussed the audit findings with RM and DS
        in January 2005 and provided copies of the draft report to DS, RM, and the Foreign
        Service Institute (FSI) on April 13, 2005. DS, RM, and FSI agreed with OIG’s
        recommendations, and their comments on the draft are included as Appendices B,
        C, and D.




        4
         P.L. 108-7. This legislation also requires accounting for customs duties imposed on commodities
        financed with appropriated foreign assistance funds. This audit examined only VAT exemption and
        reimbursement efforts, however.



4 .   OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005


                                       UNCLASSIFIED

                                      UNCLASSIFIED





                                BACKGROUND




VAT EXEMPTIONS AND REIMBURSEMENTS
    VAT is currently the dominant tax structure worldwide. VAT is a multistage
goods and services tax whereby increments of tax are collected numerous times
before goods and services are sold to consumers, who ultimately bear the full tax
burden. An accounting firm estimates that 120 or more nations5 charge VAT on
the purchase of goods and services, and the VAT rate can go up to 25 percent.
The United States does not use a VAT system.

    Tax exemptions or reimbursements, including those for VAT, may be granted or
withheld on a reciprocal basis between the United States and foreign governments.
Such arrangements are usually documented in bilateral agreements or, in some
cases, bilateral notes. The U.S. government asserts that VAT is a direct tax eligible
for exemption or reimbursement under the Vienna Conventions on Diplomatic and
Consular Relations, rather than an exempt indirect tax.

    To clarify the extent and process of tax relief, the United States obtains a
bilateral agreement with host governments. For VAT reimbursement agreements,
the missions must make periodic requests for reimbursements to host government
finance ministries with the required supporting documentation. Depending on the
country, the VAT refund can range from 100 percent to substantially less, and it can
take from two months to more than a year to collect.6

    KPMG, a contractor hired by DS/OFM in 2002 to review unrecovered VAT
costs, found that the Department loses an estimated $24 million annually in
unreimbursed VAT payments. The contractor was conservative in its estimate and
stated that the loss could be 50 percent higher. KPMG found that DS/OFM had




5
    STATE 118019, VAT Basics, May 6, 2003.
6
    6 FAH-5 H-809.1-3a Value Added Tax.



OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005   5 .

                                      UNCLASSIFIED

                                       UNCLASSIFIED




        no effective mechanism for tracking and monitoring VAT, limited tax expertise at
        posts, no resources dedicated to managing VAT, and no adequate system to track
        and monitor VAT transactions. The study also revealed that bureaus and posts were
        unable to identify the total VAT expenditures and reimbursements for any given
        year.




6 .   OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005


                                       UNCLASSIFIED

                                      UNCLASSIFIED





                    PROGRAM ADMINISTRATION


    In 1982, the Foreign Missions Act7 created the Office of Foreign Missions
(OFM) within the Department to review and control the operations and benefits of
foreign missions in the United States and to ensure reciprocity in the treatment of
U.S. missions and diplomats abroad. The Secretary of State delegated OFM re-
sponsibilities to the Under Secretary for Management (M), who redelegated them to
the Assistant Secretary for Diplomatic Security, who serves as OFM Director.

    The Foreign Missions Act is based on a policy of reciprocity, whereby the
treatment accorded foreign missions in the United States will be determined after
due consideration of the benefits, privileges, and immunities, including relief from
paying VAT, customs duties, and other government levies, provided U.S. missions
in the country represented by the foreign missions. DS/OFM is expected to pursue
reciprocity on a broad range of privileges and immunities granted to U.S. mission
personnel abroad and foreign mission personnel in the United States.

    DS/OFM is responsible for formulating and implementing tax reciprocity
policies and programs that affect foreign missions in the United States and U.S.
missions abroad. First, the DS/OFM Tax and Customs Division works to ensure
that U.S. diplomatic missions and personnel overseas receive all tax exemptions and
importation privileges allowed under the Vienna Conventions of Diplomatic and
Consular Privileges. Second, the division administers a program that imposes the
same tax and importation restrictions on foreign missions in the United States as
are applied to U.S. diplomatic missions abroad if necessary to persuade foreign
governments to grant tax exemptions and customs privileges. Third, the division
periodically surveys importation and tax restrictions at missions abroad.

     The Chief Financial Officer (CFO) is responsible for implementing regulations
and procedures that provide effective and efficient administrative controls of funds
available to the Department. The CFO is also responsible for the Department’s
financial systems.8



7
    P.L. 97-241.

8
    4 FAM 082.1b Fund Control Responsibilities.




OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005   7 .

                                      UNCLASSIFIED

                                       UNCLASSIFIED




            RM/FA collects data from embassies on unreimbursed VAT for foreign assis-
        tance programs to comply with the Consolidated Appropriations Resolution for FY
        2003.



        PRIOR REPORT COVERAGE
            During a 2003 inspection of DS/OFM, OIG found that VAT expenditures for
        the construction of new U.S. chanceries overseas would skyrocket to over $200
        million. However, the inspection also revealed that DS/OFM did not have suffi-
        cient staff or expertise to conduct or support an extensive program of tax negotia-
        tions. OIG reported that DS/OFM needed to ensure that the Department and its
        overseas missions were adequately prepared to negotiate with foreign governments.

            OIG embassy inspections have reported VAT-related problems in reciprocity,
        reimbursements, and accounting. Many embassies had to deal with host govern-
        ments that denied reciprocity or instituted vague bilateral agreements. OIG recom-
        mended the embassies work with DS/OFM to pursue tax exemptions or reimburse-
        ments. OIG advised other embassies with untimely VAT reimbursements to
        accelerate the reimbursement process. One embassy needed to develop updated
        user-friendly software to record reimbursements.




8 .   OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005


                                       UNCLASSIFIED

                                      UNCLASSIFIED





                                      FINDINGS




OFM OVERSIGHT OF VAT RECIPROCITY
    OIG determined that DS/OFM did not have adequate oversight of the VAT
process and had not developed necessary policies, procedures, and controls related
to VAT. DS/OFM had not provided guidance in the form of formal policies and
procedures, and training on how posts should negotiate reciprocity with foreign
host governments. In addition, DS/OFM had not always been appropriately
involved in reciprocity negotiations at posts and had not maintained copies of
bilateral agreements and notes. As a result, the Department had no assurance that
posts were following formal protocols during reciprocity negotiations or that DS/
OFM was obtaining the best tax reciprocity treatment for the U.S. government.
The OIG findings are consistent with the 2002 report prepared by KPMG that
identified a number of ways DS/OFM could improve management and oversight
of the VAT reciprocity process.



RECIPROCITY NEGOTIATIONS
    According to geographic and program bureau officials, posts often have to
negotiate with foreign governments on reciprocity issues and bilateral agreements
without the support and assistance of DS/OFM. The Department’s Foreign
Affairs Manual (FAM) states that the Director of DS/OFM is responsible for
providing and implementing policy for reciprocity between U.S. missions abroad
and foreign missions in the United States.9 However, DS/OFM had not established
and implemented a formal reciprocity policy.

    DS/OFM sent a cable to all posts in November 2001 that offered limited
guidance for negotiating with foreign finance ministries.10 The cable outlined zero-
rated, or exempt, and VAT reimbursement statuses for tax relief in foreign coun-


9
    1 FAM 264 Office of Foreign Missions Director.

10
     2001 STATE 206158 Fresh Approach on VAT Relief Negotiations.



OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005   9 .

                                      UNCLASSIFIED

                                        UNCLASSIFIED




         tries. However, the cable only defined the statuses and did not offer guidelines the
         posts could use to negotiate such statuses. Further, the cable stated “the mission
         (post) is free to make whatever improvements in its situation that host government
         tax authorities will agree to.” This statement defers all responsibility to the posts
         for negotiating with the foreign governments.

             Without a formal policy, the Department has no assurance that missions will
         follow formal protocols during reciprocity negotiations or that they will obtain the
         optimum tax reciprocity for the United States. Formal guidelines for documenting
         negotiations and agreements would help eliminate miscommunication between the
         United States and foreign governments and would help ensure that posts know how
         to negotiate reciprocity and what benefits or taxes can be leveraged in pursuing
         reciprocity.

             Both OIG and KPMG found that DS/OFM had not provided for training
         employees who manage the VAT process. KPMG recommended that DS/OFM
         develop and provide specific and targeted tax training to administrative, financial,
         budget, and contracting officers. KPMG noted that the primary aim of the training
         would be to increase tax awareness among those making decisions that have tax
         consequences. In addition, bureau officials indicated to OIG that employees
         handling VAT (mostly Foreign Service nationals) have not received formal training,
         and many employees do not have backgrounds or experience in taxes. Formal
         training that explains how reciprocity works, including the interactions of posts and
         foreign governments, would assist employee effectiveness in handling VAT and
         reciprocity issues. KPMG noted that DS/OFM would need to collaborate with an
         external provider to deliver such training given the logistical difficulties in training
         individuals in multiple locations. FSI told OIG that it could provide this training
         by working it into current courses.

              The geographic and program bureau officials generally thought DS/OFM
         should be more involved in negotiations with foreign governments. Unusual or
         difficult reciprocity issues often occur, and Department officials believed DS/OFM
         or higher level officials should provide more assistance in these cases. For example,
         one bureau estimated that it loses between $5 million and $6 million annually in
         unreimbursed VAT expenditures because some countries do not make timely
         reimbursements, which results in the funds being returned to the U.S. Treasury
         without direct benefit to the Department. Some countries reimburse in local
         currency while others are willing to reimburse in U.S. dollars. One bureau indicated
         that the United States loses money due to currency conversion costs.




10 .   OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005


                                        UNCLASSIFIED

                                      UNCLASSIFIED




    OBO officials told OIG that DS/OFM should negotiate for reciprocity before
OBO begins planning large construction projects. In the past, DS/OFM consid-
ered itself a reactive group, and only became involved in VAT reciprocity negotia-
tions when called upon by posts and when problems arose in negotiations. In
September 2004, DS/OFM appointed a new Director for the Diplomatic Tax and
Customs Programs. The director is working to be more responsive to OBO’s needs
and more involved in the negotiation process. For example, DS/OFM officials
recently traveled to 16 posts to negotiate tax exemptions for 18 capital construc-
tion projects by obtaining agreements with the host governments, confirming that
the diplomatic tax privileges of the Vienna Conventions would be available for the
OBO capital construction projects scheduled for the countries, and to clarify the
processes by which the United States would obtain the tax relief. They also hoped
to resolve any general problems concerning the U.S. missions’ tax relief status in
these countries.

    DS/OFM began assisting OBO with reciprocity negotiations in 2004, and it
needs to expand its assistance to other bureaus to improve the Department’s overall
reciprocity negotiation process with foreign governments. Establishing a formal
process in the FAM that outlines the roles and responsibilities for the Department’s
bureaus, including DS/OFM, would further ensure that reciprocity issues are
optimally addressed.

    OIG found that over a recent three-year period, DS/OFM had not documented
any bilateral agreements with other countries. In addition, a contractor hired by
DS/OFM to review the VAT issue found there were many undocumented side and
oral bilateral agreements at posts. Documenting bilateral agreements is essential to
ensure the parties understand and comply with the agreements. Posts are at a
disadvantage during negotiations with foreign governments when the details of
existing bilateral agreements are not available. DS/OFM recently recognized this
oversight and has been striving to obtain and maintain data on bilateral agreements
and notes. DS/OFM drafted a cable to all posts in December 2004 requesting
information on reciprocity and other issues. DS/OFM will maintain this informa-
tion for future negotiations.

    OIG commends DS/OFM’s increasing involvement in negotiations and obtain-
ing data and maintaining records on bilateral agreements and notes. Therefore,
OIG is not making any recommendations regarding these two issues. However,
DS/OFM needs to continue to improve the process and provide more guidance
and training to posts.




OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005   11 .

                                      UNCLASSIFIED

                                        UNCLASSIFIED





             Recommendation 1: OIG recommends that the Bureau of Diplomatic Secu-
             rity, Office of Foreign Missions document the Department’s policy on reci-
             procity negotiations in the Foreign Affairs Manual. (Action: DS/OFM)


             DS agreed with recommendation 1 and said that it was working to update the
         FAM and establish policies for the diplomatic tax relief effort. On the basis of DS’
         response, this recommendation is resolved, pending completion of DS’ initiatives.


             Recommendation 2: OIG recommends that the Bureau of Diplomatic Se-
             curity, Office of Foreign Missions develop and implement, with the Foreign
             Service Institute, reciprocity awareness and training programs for appropriate
             officials. (Action: DS/OFM, in coordination with FSI)


             DS and FSI agreed with recommendation 2. DS said that it had expanded
         outreach efforts, including making presentations at conferences, in FSI manage-
         ment courses, and other relevant venues.

             DS requested clarification of the intended distinction between the recommen-
         dation 2 reference to “reciprocity awareness” and recommendation 3. Recommen-
         dation 2 is focused on educating bureau and post officials on the services OFM can
         provide them to encourage VAT reimbursements from host governments. Recom-
         mendation 3 is focused on guidance and training of post officials for developing
         local VAT reimbursement negotiating strategies and internal procedures for pro-
         cessing VAT reimbursements based on local requirements.

             On the basis of DS’ and FSI’s responses, this recommendation is resolved,
         pending receipt and review of specific information on DS’ expanded outreach
         efforts, such as the scope and content of the program.



         VAT REIMBURSEMENTS
             According to geographic and program bureau officials interviewed, there is no
         consistency in how the posts manage the VAT reimbursement process. DS/OFM is
         responsible for formulating and implementing a policy on tax programs for foreign
         missions abroad. However, DS/OFM had not developed and disseminated gen-




12 .   OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005


                                        UNCLASSIFIED

                                      UNCLASSIFIED




eral, formal policies and procedures for obtaining and processing VAT reimburse-
ments.11 The DS/OFM VAT Basics cable sent to all posts in May 2003 provided
some background information on VAT. For instance, the cable described the
history of VAT, explained the advantages for a foreign government to have VAT,
and summarized how to compute VAT. However, this cable did not provide the
detailed guidance that officials need to process VAT. One bureau mentioned that it
was not sure who was responsible for VAT. Another indicated that it did not know
whom to designate to send, receive, or handle VAT reimbursements overseas. This
bureau said the Department should develop formal VAT guidance. Lack of guid-
ance for bureaus and posts increases the chance for miscommunication of responsi-
bilities and inaccurate accounting and reporting.


     Recommendation 3: OIG recommends that the Bureau of Diplomatic Se-
     curity, Office of Foreign Missions develop and implement, with the Foreign
     Service Institute, formal guidance and training to posts on obtaining value-
     added tax exemptions or reimbursements and on managing the VAT reim-
     bursement process. (Action: DS/OFM, in coordination with FSI)


    DS and FSI agreed with recommendation 3. DS said that it had expanded
outreach efforts, including making presentations at conferences, in FSI manage-
ment courses, and other relevant venues. DS also raised a question regarding the
distinction between recommendations 2 and 3. OIG addressed this question in its
comments to recommendation 2.

    On the basis of DS’ and FSI’s responses, this recommendation is resolved,
pending receipt and review of specific information on DS’ expanded outreach
efforts, such as the scope and content of the program.



TRACKING VAT REIMBURSEMENTS IN FINANCIAL SYSTEMS
    OIG determined that the Department’s financial management systems were not
adequate to account for VAT expenditures and reimbursements, and RM had not
issued policies and procedures or provided training for administrative control of
VAT reimbursements. Consequently, the Department cannot ensure that all VAT
payments and reimbursements are properly classified, summarized, and recorded.

11
  Such policies would need to be adapted to the requirements of individual missions as dictated by
their bilateral agreements.


OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005   13 .

                                      UNCLASSIFIED

                                        UNCLASSIFIED




             The objectives of federal financial reporting are to provide users with informa-
         tion about operating performance and stewardship, which is the foundation for
         budgeting, managing programs, and controlling costs. The geographic and program
         bureaus, however, told OIG it was difficult to use the Department’s financial
         systems to track VAT because the systems did not maintain data and generate
         reports useful for managing VAT expenditures. According to officials in INL,
         OBO, and other bureaus, the systems capture summary data on purchases and
         projects, but do not account for and track all VAT transactions. RM has reported
         the Department cannot determine the amount of VAT that should be collected
         from foreign governments.

             In addition, OIG found that RM had not established a formal process for
         recording and reporting VAT payments and reimbursements. According to the
         FAM, “the CFO is responsible for issuance of implementing regulations and
         procedures which will provide for the effective and efficient administrative control
         of funds available to the Department.”12

             By not establishing a formal process, the Department is not able to effectively
         and efficiently track and control VAT reimbursements. OBO and INL have created
         their own project financial management systems. OBO developed an Access
         Tracking System in 2003, which is used to record and track project expenditures,
         including VAT. INL developed a new Local Financial Management System, tested
         in December 2004, which it intended all posts with INL foreign assistance pro-
         grams would use for maintaining consistent financial reports on INL foreign assis-
         tance projects and programs. INL’s new system was planned to replace the manual
         systems posts were using for recording project transactions, including VAT. How-
         ever, the Information Technology Change Control Board (ITCCB) disapproved of
         the project in April 2005 because it was potentially duplicative of other solutions
         and it had an inappropriate architecture.

             In addition, Bureau of Resource Management/Foreign Assistance Programs and
         Budget (RM/FA) officials have had to collect data manually pursuant to the Con-
         solidated Appropriation Resolution, 2003. The act requires the Department to
         collect data annually from its missions abroad on the amount of unreimbursed VAT
         expended in implementing foreign assistance programs in their host countries to
         provide the basis for penalizing countries who tax U.S. foreign assistance without
         reimbursement. RM/FA officials told OIG that manually gathering required data
         resulted in inaccurate and incomplete reporting by the missions. Consequently,


         12
              4 FAM 082.1.



14 .   OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005


                                        UNCLASSIFIED

                                      UNCLASSIFIED




RM/FA is unable to submit to the Secretary of State a final net tax amount for
each country to be used as a basis for determining whether the Secretary withholds
foreign assistance in the next fiscal year. This internal control weakness prevents
the Department from complying with this part of the act.

    Having a reliable and accessible automated financial system to record VAT
transaction and summary data will promote more consistent analysis and reporting
at posts, regional offices, and headquarters and will help the Department comply
with all legal requirements. Creating multiple financial systems for individual
bureaus is inefficient and uneconomical.


   Recommendation 4: OIG recommends the Bureau of Resource Manage-
   ment expand its financial management system to allow reliable recording,
   tracking, and reporting of value-added tax transactions in accordance with the
   legal and management needs of bureaus and posts. This should include guid-
   ance and training for the bureaus and posts on using the expanded system.
   (Action: RM)

    RM agreed with the intent of recommendation 4. RM said that it planned to
take measures to achieve the goal of tracking and reporting VAT transactions in
accordance with the legal and management needs. On the basis of RM’s response,
this recommendation is resolved, pending RM’s development of a process that
appropriately records, tracks, and reports VAT transactions.




OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005   15 .

                                      UNCLASSIFIED

                                        UNCLASSIFIED





16 .   OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005


                                        UNCLASSIFIED

                                      UNCLASSIFIED





                             OTHER MATTERS


    Interviews with geographic bureau officials revealed that posts are facing
various difficulties in processing VAT. Bureau officials told OIG that not all posts
pursue VAT reimbursements for the fourth quarter of the year because the posts
are not able to use the funds, which revert to the Department of the Treasury
(Treasury). Many posts are using manual ledger systems to record and track VAT
and have not automated the process. DS/OFM also indicated that the process to
record the accounting transactions for VAT is complicated. OIG’s survey was
performed domestically, and therefore, OIG could not perform work to confirm
these issues overseas. OIG will review these issues in more depth during its work
on the VAT process at posts in FY 2005.



FOURTH-QUARTER VAT REIMBURSEMENTS
    Bureau officials have indicated that many posts that otherwise seek VAT
reimbursements fail to pursue them in the fourth quarter of the fiscal year. VAT
reimbursements received after the end of the fiscal year must be returned to the
Treasury.13 Posts have no incentive to obtain fourth-quarter VAT reimbursements
they are unable to use. Bureaus told OIG that some posts budget for the potential
loss of funds in the fourth quarter; a potential loss of millions of dollars to the
government. Other posts arrange with their host governments to obtain some
portion of their last quarter reimbursements before fiscal year end.



ACCOUNTING FOR VAT AT POSTS
    Geographic bureaus told OIG that many posts continue to maintain archaic
systems for recording and tracking VAT, including cumbersome, detailed manual
ledger records and binders of VAT documentation. Some bureaus indicated that
recording and tracking VAT is a huge, time-consuming task.

13
  Post operations are funded by single-year appropriations that require any funds remaining after
the fiscal year to be returned to the Treasury.



OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005   17 .

                                      UNCLASSIFIED

                                        UNCLASSIFIED




             A DS/OFM official told OIG that accounting for VAT is difficult at posts
         because it requires four separate entries: (1) record the obligation for the item, (2)
         record the obligation for VAT, (3) pay the bill, and (4) record the VAT reimburse-
         ment. This is even more difficult because the deobligation cannot occur until the
         post receives the reimbursement. With so many transactions to manually record,
         VAT transactions may not be properly classified and recorded.

             Officials at two bureaus told OIG that some missions have implemented
         effective and efficient VAT financial management systems. Implementing a simple,
         structured, and consistent process for managing VAT at posts could enhance
         productivity and internal controls.




18 .   OIG Report No. AUD/FM-05-33, Assessment of Value-Added Tax Exemption and Reimbursement Efforts - July 2005


                                        UNCLASSIFIED

